No. 20-348

3fn f&fje

Supreme Court of tfje tHniteb States
GREGORYS. MERCER,
Petitioner,
vs.
E. A. Vega, et ol.
Respondents.

On Petition For Writ Of Certiorari To The United
States Court Of Appeals for The Fourth Circuit

PETITION FOR REHEARING

Gregory Shawn Mercer,
Petitioner, pro se
3114 Borge Street
Oakton, Virginia 22124
202-431-9401

1

PETITION FOR REHEARING
This is a 12/1/20 Petition for Rehearing in
accordance with SCOTUS Rule 44.2 of Petitioner’s
9/11/20 731-Page (includes cover) Petition for Writ of
Certiorari which was intercepted by agents of
Respondents after it was filed with/delivered to the
SCOTUS Guard behind the SCOTUS Building on
.9/11/20 at or about 2:55 pm. This was a 9/11/20
Obstruction of Justice involving fraudulent use of the
two SCOTUS Guard Booths behind the SCOTUS
Building on 2nd Street, NE, Washington, DC.
Petitioner’s 648-Page Appendix was removed from his
9/11/20 Petition for Writ of Certiorari by agents of
Respondents. A 12-Page Unauthorized Prejudicial
Appendix was substituted for Petitioner’s 648-Page
Petition for Writ of Certiorari Appendix by agents of
Respondents. Page number two (2) stating "8,995
Words” was removed from Petitioner’s associated
9/11/20 4-Page (includes cover) Certificate of
Compliance by agents of Respondents. The first five
(5) pages including the Adhesive “Clerk-Stamped”
Cover Page stating "TB468 RECEIVED SUPREME
COURT U.S. POLICE OFFICE 2020 SEP 11 P 2:55”
were removed from Petitioner’s associated 9/11/20 7Page Certificate of Service. Then Petitioner’s three
SCOTUS Filings (9/11/20 Petition for Writ of
Certiorari and Appendix with associated Certificates
of Compliance and Service) were returned to the
SCOTUS Clerk who entered onto the SCOTUS
Website what was received from the SCOTUS Police
Office at the SCOTUS Clerk’s Office. This was the
only in-person filing method available to Petitioner for
his SCOTUS documents on 9/11/20. For more specific

2

details about the Obstruction of Justice by agents of
Respondents using the two SCOTUS Guard Booths
when Petitioner filed on 9/11/20, please see attached
10/27/20 “Affidavit of Gregory Shawn Mercer”
and attached 10/28/20 “Corrected Affidavit of
Kashavera S. Williams. ”
This 9/11/20 Obstruction of Justice by agents of
Respondents fraudulently using the two Guard Booths
behind the SCOTUS Building was a violation of the
intent of SCOTUS Rule 1.2 (protecting SCOTUS
Filings from Obstruction of Justice/Fraud after those
Filings have been received by the SCOTUS). Current
SCOTUS Rule 1.2 has not been substantially modified
since at least 1989 (Petitioner filed in-person a
previous SCOTUS Case No. 94-21066 inside the
SCOTUS Building). In order to keep current with the
changing in-person filing methods to the SCOTUS
Clerk’s Office, current SCOTUS Rule 1.2 needs to be
updated. In-person filing methods to the SCOTUS
Clerk’s Office changed between 1994 and 2020. Inperson fifing methods to the SCOTUS Clerk’s Office
now necessitate personally handing SCOTUS Filings
to a SCOTUS Guard behind the SCOTUS Building at
a SCOTUS Guard Booth on 2nd Street, NE,
Washington, DC. This requirement was due to past
episodes of Anthrax contained in delivered mail and
the current COVID-19 Pandemic (Mask required) as
Petitioner understands it. This Petition for Rehearing
with two attached AFFIDAVITS explains in detail
the current vulnerability of SCOTUS documents filed
in-person at the SCOTUS. Petitioner adopts and
incorporates the entire Appendix attached hereto as
if rewritten verbatim hereat:

3

1989 SCOTUS Rule 1.1 - “The Clerk shall
maintain the Court’s records and shall not
permit any of them to be removed from the
Court building except as authorized by the
Court. Any pleading, paper, or brief filed with
the Clerk and made a part of the Court’s records
may not thereafter be withdrawn from the
official Court files. ...”
2019 SCOTUS Rule 1.2 - “The Clerk maintains
the Court’s records and will not permit any of
them to be removed from the Court building
except as authorized by the Court. Any
document filed with the Clerk and made a part
of the Court’s records may not thereafter be
withdrawn from the official Court files. ...”
This Petition for Rehearing concerns an
intervening circumstance of a substantial or
controlling effect after Petitioner filed his three
SCOTUS documents: 9/11/20 Petition for Writ of
Certiorari and Appendix with associated Certificates
of Compliance and Service.
This Petition for
Rehearing concludes with a signed CERTIFICATE
that it is presented in good faith and not for delay
§1746
followed by a signed 28 U.S.C.
DECLARATION that this entire Petition for
Rehearing is true and correct.
Petitioner was born in Houston, Texas (Harris
County) and fives in Northern Virginia. In accordance
with U.S. Amendment XIV [A214], Petitioner is both
a United States Citizen and a Virginia Citizen entitled
to and protected by the Federal Rights in the
Constitution of the United States being the first ten

4

U.S. Amendments to that U.S. Constitution known as
the U.S. Bill of Rights [A217]. On 3/28/18, Petitioner
invoked his U.S. Amendment VII Right to Trial by
Jury [A214] in the U.S. District Court for the Eastern
District of Virginia (herein and hereafter “VAED”) by
filing through counsel Gregory S. Mercer u. E.A. Vega.
Case No. l:18-cv-346-LO-TCB.
In the VAED,
Petitioner’s 3/28/18 Complaint was dismissed without
prejudice by 4/3/18 Order [A27-29] so Petitioner again
invoked his U.S. Amendment VII Right to Trial by
Jury [A214] in the same Case No. l:18-cv-346-LOTCB by filing his 4/16/18 First Amended Complaint
[A286-293] which states:
“PRAYER FOR RELIEF - WHEREFORE,
Plaintiff Gregory S. Mercer, by counsel,
demands for: ... C. Trial by Jury [A292-293].”
The nine Justices of this SCOTUS take two
oaths (5 U.S.C. §3331 and 28 U.S.C. §453) to support
and defend the Constitution of the United States
inclusive of U.S. Amendment VII and to administer
justice equally without respect to persons:
., do solemnly swear (or affirm)
that I will support and defend the Constitution
of the United States against all enemies, foreign
and domestic; that I will bear true faith and
allegiance to the same; that I take this
obligation freely, without any mental
reservation or purpose of evasion; that I will
well and faithfully discharge the duties of the
office on which I am about to enter. So help me
God.”
“I,

5

j do solemnly swear or affirm
that I will administer justice without respect to
persons, and do equal right to the poor and to
the rich, and that I will faithfully and
impartially discharge and perform all the
duties incumbent upon me as (Associate/Chief)
Justice of the Supreme Court of the United
States, according to the best of my abilities and
understanding, agreeably to the constitution
and laws of the United States. So help me God.”
“I,

In a Summary Judgment Proceeding where
Judges or Justices decide whether or not there exists
one or more Jury Question(s) that must proceed to a
Jury Trial and in order not to infringe on the invoked
U.S. Amendment VII Right to Trial by Jury (not
Bench Trial) of the non-moving Party that invoked
this Right, the accepted legal standard is for the
Judges or Justices to give the Party that invoked the
Right to Trial by Jury (here the Plaintiff/Previous
Plaintiff) the benefit of the doubt by viewing all facts
and any justifiable inferences from those facts in the
fight
most
favorable
to
the
non-moving
PlaintiffTPrevious Plaintiff. From Petitioner’s 9/11/20
Petition for Writ of Certiorari, Pages 21-22:
“The Fourth Circuit and this SCOTUS have
already ruled about procedures in Summary
Judgment Proceedings. Anderson v. Liberty
Lobby. Inc.. 477 U.S. 242, 248-49, 106 S.Ct
2505, 91 L.Ed.2d 202 (1986) (“A fact is material
when proof of its existence or nonexistence
would affect the outcome of the case, and an
issue is genuine if a reasonable jury might

6

return a verdict in favor of the nonmoving party
on the basis of such an issue.”) [A58-59, D3,
024]. Matsushita Elec. Indus. Co. v. Zenith
Radio Cory„ 475 U.S. 585-88 n. 10 & 11, 58687, 106 S.Ct 1348, 89 L.Ed.2d 538 (1986) “A
party moving for summary judgment has the
initial burden of establishing the basis for its
motion and identifying the evidence which
demonstrates the absence of a genuine issue of
material fact. Id. Once the moving party
satisfies its initial burden, the opposite party
may show, by means of affidavits or other
verified evidence, that there exists a genuine
dispute of material fact.”) [A102-103, D3, G5,
H5, J40, 023-24],
U.S. v. Carolina
Transformer Co.. 978 F,2d 832, 835 (4th Cir.,
1992) (“In reviewing a summary judgment
motion, the court must “draw all justifiable
inferences in favor of the nonmoving party.”)
[Al57-158, G5-6, H5, 32, 50, J40, L42, 024].”
According to Respondent E.A. Vega’s 7/30/19
Informal Response Brief in the appeal of Petitioner’s
VAED Summary Judgment Proceeding in the U.S.
Court of Appeals for the Fourth Circuit (herein and
hereafter “Fourth Circuit”), this accepted legal
standard to give the non-moving Previous Plaintiff the
benefit of the doubt is reviewed de novo in the
FOURTH CIRCUIT as Petitioner expects this
SCOTUS will now review Case No. 20-348 herein de
novo:
“This Court reviews the District Court’s ‘grant
of summary judgment de novo, viewing the facts

7

and the reasonable inferences therefrom in the
light most favorable to the nonmoving party.’
Bonds v. Leavitt, 629 F.3d 369, 380 (4th Cir.
2011) (citation omitted). Under Rule 56(c) of
the Federal Rules of Civil Procedure, summary
judgment may be granted when the pleadings
and evidence show that there is no genuine
issue as to any material fact. Celotex Cory, v.
Catrett. 411 U.S. 317, 322 (1986) [A61, K17,
L77, 01].”
Therefore, Gregory S. Mercer v. E.A. Vega. et al.,
SCOTUS Case No. 20-348 herein is a de novo appeal
of a 3/15/19 to 5/24/19 Summary Judgment Proceeding
in VAED Case No. l:18-cv-346-LO-TCB where
Petitioner was the non-moving Plaintiff filing a
5/22/19 belated Disputed Statement of Facts [A339399, H6-49, L24-54]. Petitioner’s 5/22/19 belated
Disputed Statement of Facts was presented as a
“FRCP Rule 59 Motion for New Trial; Altering or
Amending a Judgment / / Three Additional Motions
on Pages 5-6 and Paragraphs 188 & 189 [A339-399,
H6-49]” following what Petitioner argued was
ABUSE OF DISCRETION by the VAED via a
footnote in its 4/24/19 Memorandum Opinion [A32-43
at A42, Gl-9 at G8], 4/24/19 Order [A43-44], and
4/25/19 Judgment [A44-45J. This VAED Summary
Judgment Proceeding was appealed from 5/24/19 to
2/3/20 in the FOURTH CIRCUIT as Case No. 19-1584
where Petitioner argued there was CLEAR ERROR
by the VAED because the VAED Judge had reviewed
by 5/24/19 VAED Order [A187-189] Petitioner’s
5/22/19 FRCP Rule 59 Motion to alter or amend the
VAED
Judgment
containing
ABUSE
OF

8

DISCRETION. The reviewed 5/22/19 FRCP Rule 59
Motion documented Petitioner’s belated Disputed
Statement of Facts [A339-399, H6-49, L24-54].
Despite the review of Petitioner’s 5/22/19 belated
Disputed Statement of Facts in the VAED Summary
Judgment Proceeding, the VAED Judge had not
viewed Petitioner’s Disputed Facts drawing any
justifiable inferences from those Disputed Facts in the
light most favorable to Petitioner which was the
accepted legal standard of the FOURTH CIRCUIT
and this SCOTUS [A58-59, 61, 102-103, 157-158].
Petitioner petitioned the FOURTH CIRCUIT as he
now petitions this SCOTUS to grant his VAED 5/22/19
FRCP Rule 59 Motion upon remand to the VAED.
With 9/11/20 Obstruction of Justice by agents of
Respondents via fraudulent use of the two SCOTUS
Guard Booths behind the SCOTUS Building which
Petitioner believes was actually a Virginia State
Police Operation conducted on SCOTUS Grounds,
Respondents have created the appearance of an
unwritten Undisputed Statement of Facts which
Petitioner counters with a SCOTUS Disputed
Statement of Facts (this Petition for Rehearing)
containing “affidavits or other verified evidence” being
an attached 10/27/20 “Affidavit of Gregory Shawn
Mercer” and an attached 10/28/20 “Corrected
Affidavit of Kashavera S. Williams.” Respondents’
unwritten Undisputed Statement of Facts are: 1) that
Petitioner on 9/11/20 at or about 2:55 pm did not file a
648-Page Appendix with his [Corrected] Petition for
Writ of Certiorari but 2) instead filed Respondents’ 12Page Unauthorized Prejudicial Appendix with his
[Corrected] Petition for Writ of Certiorari then 3)

9

omitted page two (2) of his associated Certificate of
Compliance indicating that Petitioner’s 7/14/20 to
9/11/20 correction to his 9/11/20 [Corrected] Petition
for Writ of Certiorari brought the Word Count from
13,618 Words to 8,995 Words in accordance with
SCOTUS Rule 33.1(g) and 4) that Petitioner failed to
serve three copies of his 9/11/20 [Corrected] Petition
for Writ of Certiorari on the three Respondents but
instead had relied on the fact that Petitioner had
previously served on Respondents three copies of his
7/2/20 Petition for Writ of Certiorari without the
needed 9/11/20 corrections by mail and private process
server on 7/2/20.
While the argument above establishes that the
accepted legal standard in this SCOTUS de novo
appeal of the 3/15/19 to 5/24/19 VAED Summary
Judgment Proceeding then the 5/24/19 to 2/3/20
FOURTH CIRCUIT Summary Judgment Proceeding
would require this SCOTUS to view all Petitioner’s
Disputed Statement of Facts concerning events of
9/11/20 herein and any justifiable inferences from
those 9/11/20 Disputed Facts in the fight most
favorable to Petitioner, Petitioner points out further
facts and justifiable inferences including the agents of
Respondents’ greatest errors.
• The Adhesive “Clerk-Stamped” Cover Page of
the Certificate of Service for Petitioner’s 9/11/20
Petition for Writ of Certiorari on the SCOTUS
Website does not having a matching “TB468
RECEIVED SUPREME COURT U.S. POLICE
OFFICE 2020 SEP 11 P 2:55” sticker but has a
7/3/20 date because agents for the Respondents

10

clearly violated the intent of SCOTUS Rule 1.2
by removing an actual “Clerk-Stamped”
document from the SCOTUS along with 653
other pages of Petitioner’s documents as
detailed in Petitioner’s 10/27/20 Affidavit;
• Petitioner is of the understanding that four
Justices are needed to grant a Petition for Writ
of Certiorari but five might be needed to grant
a Petition for Rehearing according to SCOTUS
Rule 44.1 (not 44.2) so agents of Respondents’
Obstruction of Justice/Fraud might be
rewarded by this SCOTUS inappropriately.
• See attached USPS receipts
Where
Petitioner served/delivered Respondents in
triplicate his 7/2/20 749-Page (includes cover)
double-sided Petition for Writ of Certiorari
including its 648-Page double-sided Appendix
on or about 7/2/20 then served Respondents in
triplicate his 9/11/20 [Corrected] Petition for
Writ of Certiorari by 27 double-sided
Replacement Pages without major corrections
to the 648-Page Appendix (three Pages edited —
See Petition for Writ of Certiorari Pages 12-13
not pages xii-xiii) which corrected/eliminated 18
pages from the 7/2/20 Petition for Writ of
Certiorari to lower the Word Count from 13,618
Words to 8,995 Words in the 9/11/20 [Corrected]
Petition for Writ of Certiorari, the 7/2/20 USPS
receipt (13 Lb 10.6 Oz; 13 Lb 10.2 Oz; 3rd
Respondent serviced by Private Process Server)
compared with the 9/11/20 USPS receipt (1 Lb

11

4.1 Oz; 1 Lb 2.7 Oz; 1 Lb 4.2 Oz) is indicative of
the fact that 3 [(648/2) - 12] = 936 additional
pages of a 7/2/20 648-Page double-sided
Appendix in triplicate were mailed/delivered to
Respondents on 7/2/20 (exact difference was
actually 1051 pages) - Petitioner’s 9/11/20-filed
648-Page Appendix was much more massive
than only 12 pages or only six double-sided
pages as agents of the Respondents wish this
SCOTUS to believe.

J

• Where Petitioner has argued that the Virginia
Government is
a
Confederate
Police
Government (as opposed to a Confederate Army
Government) that does not respect the U.S.
Supremacy Clause [A218] (See Petition for
Writ of Certiorari Pages 27-34 not Pages xxviixxxiv), Petitioner herein alleges that the
Virginia State Police conducted an extrajurisdictional
9/11/20
Police
Operation
characterized by Obstruction of Justice/Fraud
on SCOTUS Grounds in complete disrespect of
the Sovereignty of this SCOTUS and consistent
with Petitioner’s argument in his 9/11/20
Petition for Writ of Certiorari on Pages 27-34.
• That the SCOTUS Guards in their enforcement
duties which are hampered by Citizens’ Federal
Rights would have an affinity for the Virginia
State Police or Virginia Government such that
the SCOTUS Guards might be expected by
Respondents to be helpful where Petitioner

12

argues in his 9/11/20 Petition for Writ of
Certiorari on Page 33 (not xxxiii) that:
“Virginia needs a
Constitutional
Convention to rewrite the 1971
Constitution of Virginia, Article VI,
Sections 1, 2, and 7 at a minimum so that
the People elect their own Judges and the
Supreme Court of Virginia ALWAYS
(within reason) enforces Virginia and
Federal Rights. The current Virginia
Judicial Branch ought to be decapitated
for gross incompetence. Likewise, the
current Virginia Police Forces ought to
be decapitated for incompetence and
abuse of the People.”
• That SCOTUS Guards may be trained to handle
desperate SCOTUS Litigants then report back
to the nine SCOTUS Justices allowing those
Justices to gain a fuller knowledge of a case so
Justice may be best administered.
Petitioner believes that he should be granted
appropriate Punitive Sanctions as determined by this
SCOTUS for the Obstruction of Justice/Fraud carried
out on SCOTUS Grounds in disrespect of the U.S.
Supremacy Clause [A218] by agents of Respondents
who Petitioner believes were Virginia State Police
Officers.
Petitioner has no way to verify if this 12/1/20
Petition for Rehearing does or does not get intercepted
by agents of Respondents other than by reading what

13

is uploaded to the SCOTUS Website. The SCOTUS
Website, Case No. 20-348, 7/2/20 “Appendix” has 12
Pages that were inserted into Petitioner’s Appendix byagents of Respondents on 9/11/20. These 12 Pages
under “Appendix” are not Authorized by Petitioner,
should be deleted then replaced with Petitioner’s
Authorized 648-Page Appendix attached hereto.
Petitioner moves this SCOTUS to upload to the
SCOTUS Website this entire Petition for Rehearing
with its entire previously adopted and incorporated
Appendix which (short of further Obstruction of
Justice) includes: 1) 10/27/20 6-Page Affidavit of
Gregory Shawn Mercer; 2) 10/28/20 1-Page Corrected
Affidavit of Kashavera S. Williams; 3) 1-Page of
USPS 7/2/20 and 9/11/20 receipts; 4) 9/11/2020 83Page Petition for Writ of Certiorari; 5) the missing
9/11/20 648-Page Appendix; 6) 9/11/20 4-Page
Certificate of Compliance with Page two (2); and 7)
9/11/20 7-Page Certificate of Service with copy of
removed “Clerk-Stamped” cover page.

14

CERTIFICATION OF PRESENTATION IN
GOOD FAITH AND NOT FOR DELAY
I certify that this Petition for Rehearing is
limited to intervening circumstances of a substantial
or controlling effect, is limited to other substantial
grounds not previously presented, is presented in
Good Faith, and is not presented for delay.

On the 1st day of December, 2020

GREMERCER. pro se

28 U.S.C. §1746 DECLARATION / SIGNED
I certify under penalty of perjury under the
laws of the United States of America that the
foregoing is true and correct.

Respectfully Submitted,
On the 1st day of December, 2020

GREgjQRY S. MERCER, pro se
3114 Borge Street
Oakton, Virginia 22124
202-431-9401

AFFIDAVIT OF GREGORY SHAWN MERCER
Pro se Petitioner for SCOTUS Case No. 20-348,
Gregory S. Mercer vs. Eliezel A. Vega, et al.

I Gregory Shawn Mercer, am documenting facts related to my
personal 9/11/2020 filing of my 731-Page Petition for Writ of Certiorari
to the United States Court of Appeals for the Fourth Circuit at the
Supreme Court of the United States’ Southern Guard Booth nearest to
East Capitol Street & 2nd Street, NE, Washington, DC. While I have
filed many SCOTUS documents over the years including after SCOTUS
documents needed to be filed outside at the Supreme Court of the
United States’ Northern Guard Booth nearest to A Street & 2nd Street,
NE, Washington, DC, due to fear of anthrax on Court Filings, I have
never filed before 9/11/2020 any SCOTUS documents at the Supreme
Court’s Southern Guard Booth nearest East Capitol Street & 2nd
Street, NE, Washington, DC. I now believe this anomaly on 9/11/2020
at or about 2:55 pm was part of a bold and carefully designed fraud
against me which I explain below.
The Fourth Circuit denied my 12/12/2019 Informal Petition for
Rehearing on 2/3/2020 setting a 90-day deadline according to SCOTUS
Rule 13.1 or until 5/3/2020 to file my Petition for Writ of Certiorari in
the SCOTUS. By the 3/19/2020 SCOTUS Order due to COVID-19, this
deadline was extended to 7/2/2020. I concentrated on writing my 648Page Appendix first then finished up with my 9,000-word Facts and
Argument Sections last. On 6/28/2020,1 realized I was running over
the 9,000-word limit for my Facts and Argument Sections so I wrote an
Application with the Fourth Circuit’s assigned Circuit Justice (Chief
Justice John G. Roberts, Jr.) to extend the 9,000-word limit which I
filed at the Supreme Court’s Northern Guard Booth on 2nd Street, NE.
By SCOTUS Rule 33.1(d), this Application to Extend the Word Limit
was required to be filed 15 days before 7/2/2020 or by 6/17/2020 which
was no longer possible on 6/28/2020. I ultimately filed at the Supreme
Court’s Northern Guard Booth on 2nd Street, NE, a 749-Page Petition

for Writ of Certiorari to the United States Court of Appeals for the
Fourth Circuit in the SCOTUS on 7/2/2020 which had 13,618 words in
the Facts and Argument Sections.
Between 7/2/2020 and 7/13/2020, either SCOTUS Chief Justice
Roberts or a SCOTUS Clerk working for Chief Justice Roberts became
aware of my 648-Page Appendix, reviewed my 13,618-word Facts and
Argument Sections, then denied my 6/28/2020 Application to Chief
Justice Roberts (the Fourth Circuit’s Circuit Justice). By 7/14/2020
Letter from the SCOTUS Clerk Scott S. Harris, I was asked to rewrite
the Facts and Argument Section to comply with the 9,000-word limit,
according to SCOTUS Rule 33.1(g) and given 60 days to make this
correction to my 7/2/2020 Petition for Writ of Certiorari or on or before
9/12/2020.
On or about 7/28/2020,1 became employed for the first time since
being Falsely Convicted on 3/27/2007 of Assaulting Virginia State Police
Trooper Kenneth S. Houtz on 6/9/2006 (See 9/11/2020 Appendix Pages
A344, A348, & A352 at Paragraphs 23, 37, 53, & 54). I was hired by the
2020 Census and worked until counting Fairfax County, Virginia
residents was completed then I was transferred by the 2020 Census to
count residents in Philadelphia, Pennsylvania until 10/5/2020. I served
my Corrected Petition for Writ of Certiorari by Replacement Pages to
my 7/2/2020 Petition for Writ of Certiorari on my three Respondents on
9/10/2020 and prepared to re-file a complete Corrected Petition for Writ
of Certiorari to the United States Court of Appeals for the Fourth
Circuit at the Supreme Court’s Northern Guard Booth on 9/11/2020.
After making copies at FedEx Office in Fairfax, Virginia creating
duplicate copies of my 731-Page Corrected Petition for Writ of
Certiorari with duplicate copies of Compliance/Service Certificates, I
drove to 7008 Little River Turnpike in Annandale, Virginia to pick-up
Kashavera S. Williams from her place of employment just after 2:00 pm
on 9/11/2020. I then drove with Kashavera S. Williams to the Supreme
Court’s Northern Guard Booth nearest to A Street & 2nd Street, NE,
Washington, DC to file 742 Pages of SCOTUS documents which
quantity was a subject of discussion between us. The 742 Pages with

duplicates for myself filled an entire FedEx Office Box and included: 1)
my 731-Page (including cover) Corrected Petition for Writ of Certiorari
to the United States Court of Appeals for the Fourth Circuit; 2) my 4Page (including cover) Certificate of Compliance for Petition for Writ of
Certiorari (8,995 words); and 3) my 7-Page (including cover) Certificate
of Service for Petition for Writ of Certiorari (attaching my previous
7/2/2020 or 6/32/2020 Certificate of Service and my previous 7/3/2020 or
6/33/2020 Amended Certificate of Service). This latter 7-Page
Certificate of Service together with Affidavit of Kashavera S. Williams
is critical evidence of the FRAUD asainst me at the SCOTUS about to
occur as described below.
I drove with Kashavera S. Williams and parked at or about A
Street & 2nd Street, NE, Washington, DC facing North near the
Supreme Court’s Northern Guard Booth. I took my FedEx Office Box
full of SCOTUS documents to be filed to the Supreme Court’s Northern
Guard Booth where the Guard instructed me to proceed to the Supreme
Court’s Southern Guard Booth nearest to East Capitol Street & 2nd
Street, NE, Washington, DC to file my SCOTUS documents. I returned
to my car with my SCOTUS documents, explained to Kashavera S.
Williams that I needed to file my SCOTUS documents at the Supreme
Court Guard Booth behind us on 2nd Street, I did a U-turn further
North on 2nd Street, I did a three-point turn further South on 2nd
Street, and then I re-parked facing North on 2nd Street, NE near
Supreme Court’s Southern Guard Booth closer to East Capitol Street. I
walked to the Supreme Court’s Southern Guard Booth and thereat filed
my SCOTUS documents beginning with producing my Virginia Driver’s
License as ID to one of the Guards (there were at least three or four
Guards), placing six Adhesive Court Clerk Stickers with “2020 SEP 11
P 2:55” and hand-written “TB468” on them upon the SCOTUS copies
and my copies of the three SCOTUS documents to be filed, added to the
FedEx Box a piece of cardboard with the $300 Court Fee and a FedEx
Thumb Drive containing electronic copies of my Petition with Appendix
taped to the cardboard, and placed my FedEx Box with only the
SCOTUS copies of the three documents along with $300 check and
FedEx Thumb Drive into a clear plastic bag supplied by the Guard,

gave my bagged FedEx Box to the Guard, and returned to my car where
Kashavera S. Williams was waiting for me.
I drove to Philadelphia later that night exhausted pulling over to
sleep on the way at or about 11:00 pm near Maryland’s Northern
Border on 1-95. I remained in Philadelphia almost exclusively until
10/5/2020. I did receive SCOTUS Clerk Scott S. Harris’ 9/15/2020
Letter identifying Gregory S. Mercer v. E.A. Vega, et al. as SCOTUS
Case No. “20-348” which letter also returned my FedEx Thumb Drive
and I then served copies of this 9/15/2020 SCOTUS Clerk Letter on my
three Respondents on 9/21/2020 notifying them that Mercer V. Vega, et
aL had been placed on the SCOTUS Docket (this service included a
Potential Respondent Waiver Form to each Respondent). On or about
10/6/2020,1 learned two Respondents had waived their Response. The
third Respondent neither waived a Response nor Responded by his
10/15/2020 deadline.
On or about 10/22/2020,1 discovered files I did not recognize on
my FedEx Thumb Drive which spontaneously copied themselves onto
my computer with virus-like behavior and this Thumb Drive was
missing files I had previously loaded onto it on 9/11/2020. The SCOTUS
Website: 1) did not contain my 648-Page Appendix with my complete
Disputed Statement of Facts from the 2019 VAED Summary Judgment
Proceeding on Appeal but had instead a 12-Page Prejudicial
Replacement Appendix which: 2) had for 4/24/2019 VAED
Memorandum Opinion blank pages as pages 8 & 9 omitting a
FOOTNOTE central to my ABUSE OF DISCRETION Argument
against the VAED; 3) excluded the 5/24/2019 VAED Order (VAED
Document #40) central to my CLEAR ERROR Argument against the
VAED; 4) omitted page 2 of my Certificate of Compliance indicating
that my 9/11/2020 Petition was 8,995 words for the Facts and
Argument Section (Compliant with SCOTUS Rule 33.1(g)); and 5)
omitted the first 5 pages of my 9/11/2020 Certificate of Service leaving
only my previous 7/3/2020 or 6/33/2020 Amended Certificate of Service.
The fact that my 9/11/2020 Certificate of Service was not on
the SCOTUS Website necessarily involves a Guard or SCOTUS

Clerk other than myself to either remove my 7-Page 9/11/2020
Certificate of Service from the SCOTUS entirely or fail to upload
this 9/11/2020 Certificate of Service to the SCOTUS Website in
order to portray me as being negligent. However, I have an
Adhesive Court Clerk Stamped copy of this 9/11/2020 Certificate of
Service with “2020 SEP IIP 2:55” and hand-written “TB468” on the
Adhesive Court Clerk Stamp. This is solid proof that a FRAUD
against me involving the two Supreme Court Guard Booths on 2nd
Street, NE, Washington, DC was designed to intercept my SCOTUS
documents before they were filed WITH THE SCOTUS CLERK and
then: 1) Remove my 648-Page Appendix with my complete Disputed
Statement of Facts from the 2019 VAED Summary Judgment
Proceeding on Appeal; 2) Substitute a 12-Page Prejudicial Appendix for
my 638-Page Appendix; 3) Remove Page 2 of my Certificate of
Compliance about the 8.995-word Fact and Argument Section; 4)
Remove the first 5 pages of my 9/11/2020 Certificate of Service; and 5)
Reconfigure my FedEx Thumb Drive with a virus.
The Remedy here is not to allow Fraud to Prevail obstructing fair
and impartial Justice but to give me as the Petitioner leave to re file my
three SCOTUS documents with 28 U.S.C. §1746 Declaration that the
Re-fihngs are exact duplicates of what was served to Respondents on
9/10/2020 then filed at the Supreme Court’s Southern Guard Booth on
9/11/2020 where parties sympathetic to the Opposition waited
masquerading as SCOTUS Guards. Petitioner believes significant
Sanctions are due him including refusal to allow Respondents to now
file Responses after previously waiving those Responses plus financial
Sanctions against Respondents paid to Petitioner. Petitioner’s
Conference by the now 9-Justice Court should be postponed until
Mercer vs. Vega, et al., Case No. 20-348 has had a fair and impartial
review by the SCOTUS Clerk Pool and all Justices of this Court.
Attached is a copy of my 7-Page 9/11/2020 Adhesive Court Clerk
Stamped Certificate of Service (contains “2020 SEP 11 P 2:55” and
hand-written “TB468”) that proves the FRAUD against me on
9/11/2020 justifying re-filing my: 1) 9/11/2020 731-Page Petition for

Writ of Certiorari to the Court of Appeals for the Fourth Circuit; 2)
9/11/2020 4-Page Certificate of Compliance for Petition for Writ of
Certiorari; and 3) 9/11/2020 7-Page Certificate of Service for Petition for
Writ of Certiorari.
I would welcome the opportunity to produce my 7-Page 9/11/2020
Adhesive Court Clerk Stamped Certificate of Service to SCOTUS
Clerk Jeff Atkins for inspection. It verifies the occurrence of the fraud
against me described above. It would not surprise me that the SCOTUS
knows what happened on 9/11/2020 and is waiting to figure out what I
want to do about the situation. It is my solemn prayer at least. I am
moving this SCOTUS to allow me to re-file my three 9/11/2020
documents as they were filed on 9/11/2020 through SCOTUS Clerk
Jeff Atkins who I know and believe trustworthy. I am asking the
11/6/2020 SCOTUS Conference be for this purpose and a latter
SCOTUS Conference decide the merits of my Petition for Writ of
Certiorari after a fair and impartial review by the SCOTUS Clerk Pool.
RY SHAWN MERCER
VIRGINIA
COUNTY / CITY OF FAIRFAX
Before me Affiant Gregory Shawn Mercer swears and affirms
under penalty of perjury in accordance with Federal and Virginia Law
upon personal knowledge and belief that the foregoing “Affidavit of
Gregory Shawn Mercer, Pro se Petitioner for SCOTUS Case No. 20-348,
Gregory S, Mercer vs. Eliezel A. Vega, et al” is true and correct
occurring as stated above. Sworn this 27th day of October, 2020.

NOTARY
My Commission Expires: o?^

N!Ti BAND!
NOTARY PUBLIC
COMMONWEALTH OF VIRGINIA
MY COMMISSION EXPIRES MAR. 31,2024
COMMISSION # 7699340

CORRECTED AFFIDAVIT OF KASHAVERA S. WILLIAMS
On the afternoon of September 11th, 2020, my boyfriend Gregory
S. Mercer picked me up from my former job at the Fairfax County
Methadone Treatment Center located at 7008 Little River Turnpike in
Annandale, Virginia a little after 2:00 pm. We then drove downtown to
the back of the Supreme Court of the United States building where
there is a guard house at 2nd and A Streets, NE. Mr. Mercer tried
twice that day to file a petition that had 700 plus pages in the Supreme
Court. After exiting the vehicle with his petition for the first attempt,
Mr. Mercer returned to the vehicle with his petition unfiled.
When I inquired about what had happened, Mr. Mercer told me he
had been informed by the guard at the first guard house that Court
documents were currently not accepted there. He had to go to the next
guard house closer to East Capitol Street, NE to file. Mr. Mercer drove
us down 2nd Street, NE, to where he was able to successfully file his
petition on the second try. I remained in the vehicle at both locations.

o
KASHAVERA S.WILLIAMS
VIRGINIA
COUNTY / CITY OF FAIRFAX
Before me Affiant Kashavera S. Williams swears and affirms
under penalty of penury in accordance with Federal and Virginia Law
upon personal knowledge and belief that the foregoing “Corrected
Affidavit of Kashavera S. Williams” is true and correct occurring as
stated above. Sworn this 28th day of October, 2020.
/

NO
My Commission Expires:

3>)f2©'2^1>

DEEPAK JOSHI
NOTARY PUBLIC
COMMONWEALTH OF VIRGINIA
MY COMMISSION EXPIRES DEC. 31 2023
________COMMISSION # 7237806

NORVIEW
1112 GREEN ST
NORFOLK, VA 23513-9998
516521-0582
(800)275-8777
07/02/2020 12:49 PM
Product

UNITED STATES
POSTAL SERVICE.
39711/2020

Unit
Pr i ce

Price

PM 2-Day
1
$18,30
Domestic
\
RICHMOND. VA 23219
Weight:13 Lb 10.6 Oz
Expected Delivery Day
Wednesday 07/08/2020
USPS Tracking #
.9505 5152 1862 0184 2770 68
Insurance
Up to $50.00 included

$18,30

PM/2-Day
- Domestic

Qty

1

$18.30 '

Product

$0.00

$18.30

12:05 AM
Qty Unit Price

Price

PM 2-Dsy
1
Richmond. VP. 23219
Height=1 lb 4.10 oz
Expected Delivery Day
Mon 08/14/2820
USPS Tracking ft
9502 S0SS 3791 0254 2509 01

$8.25

Certified
Total
PM 2-Day
Norfolk, VA

S3.55
$11.80
i

$8.25

23510

Weight:; Ib 2,70 oz
Expected Delivery Day
Mon 09/14/2020
USPS Tracking ft
9502 6088 5731 0255 2509 24
Certified
Total

^ RICHMOND, VA 23219
Weight:13 Lb 10.2 Oz
. Expected Delivery Day
\ Wednesday 07/08/2020,
\ USPS Tracking #
-Q505 5152 1862 0>84 2770 75

Insurance.

$0.00

Up to $50.00 included

Total:

08KT0N
19443 WHITE GRANITE DR
GAKTON, VA £2124-9398
(800)275-8777

$36.6(

Credit Card Remitd
$36.
Card Name:MasterCard
Account #:XXXXXXXXXXXX6763
Approval #:01548S
Transaction #:114
AID:A0000000041010
Chip
AL:MasterCard
PIN:Not Required

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

Due to limited transportation
availability as a result of
nationwide COVID-19 impacts
package delivery times may be
extended. Priority Mail Express®
service will, not change,

$3.55
$11.80

PM 2-Dsy
1
Richmond, VA 23219
UieightU lb 4,28 oz
Expected Delivery Day
Mon 09/14/2020
USPS Tracking ft
9502 S06G S7SI 0255 2509 48
insurance
Up to $50 80 included
Certifled
Total

$3.55
$11.80

Grand Total:

$35.40

MasterCard
Ace cunt ft:XXXXXXXXXXXXS7S3
Approval #:0?6S3S
Transaction #:85S
Receipt ft:00085S
810=80000000041010
AL=MasterCard
PIN .'Net Required

$35.40

$8.25

$0.80

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

Includes up to $50 insurance
Text your tracking number to 28777
(2USPS) to get the latest status.
Standard Message and Data rates may
apply. You may also visit www.usps.com
USPS Tracking or call 1-800-222-1811,
Save this receipt as evidence of
insurance. For information on filing
an insurance claim go to
https://www.usps.com/he1p/c1 aims.htm
Preview your Mail
Track your Packages
Sign up for FREE 0
www.inf ormeddelivery.com
All sales final on stamps and postage.
Dof i inHc f nr rti
e^r-w-i
w

a******** ft ft****##**#**.

^as*****!***#*#

Oue to limited transportation
availability aa a result of
nationwide COVID-19 impacts
package delivery times may be
extended. Priority Mail Express©
service will hot change.
**fca**M»«»*«I*#*S**r***X*r***#**#***l*
Includes up tG $53 insurance
Text ycur tracking number tc 28777
(2U3PS) to get the latest status.
Standard Message 3r,d oe;a ratea may
apply. You may also visit wuiw.usps.com
USPS Tracking or call 1-800-222-13U.
Save -his receipt as evidence of
insurance. For information on filing
an.insurance claim oo to

Chip

Additional material
from this filing is
available in the
Clerk's Office.

